               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Donated Leave Accounting

               Management Advisory




                                              April 18, 2013

Report Number FT-MA-13-012
                                                                        April 18, 2013

                                                        Donated Leave Accounting

                                                       Report Number FT-MA-13-012




BACKGROUND:
U.S. Postal Service policy allows          As of September 30, 2012, active Postal
employees who are incapacitated due to     Service employees used about
serious health conditions to request and   1.4 million donated leave hours with an
receive annual leave from other            estimated value of $37.8 million.
employees. The annual leave becomes
known as donated leave upon transfer       WHAT THE OIG FOUND:
to the requestor. Employees may use        The Postal Service did not properly
donated leave for the duration of the      account for the value of unused donated
incapacitation only and any unused         leave in its financial records. This
donated leave is paid to that employee     occurred because procedures for
upon separation. The Postal Service is     recording the liability for leave did not
required to record this balance in its     include unused donated leave. In
financial records.                         addition, the value of unused donated
                                           leave was not readily available to
Our objective was to determine whether     management through reports or other
the Postal Service properly established    management tools. As a result, the
a process to record and account for the    leave liability balance was understated
value of unused donated leave in the       in the financial records by about
financial records.                         $5.6 million as of September 30, 2012.

During our fiscal year 2012 financial      WHAT THE OIG RECOMMENDED:
statements audit work, we observed the     Since management implemented a
unused donated leave value was not         software change request to update the
included in the recording of the           unused leave report on March 22, 2013,
accumulated leave value. Accounting        and plans to update Postal Service
standards require future compensated       policies and procedures by April 30,
absences, such as unused donated           2013, we are not making any
leave, to be recorded in the financial     recommendations. We will continue to
statements. To determine the financial     monitor the leave accountability process
impact, we reviewed the accounting of      as part of our ongoing financial
donated leave.                             statement audit work.

                                           Link to review the entire report
Date: April 18, 2013

MEMORANDUM FOR:            TIMOTHY F. O'REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory – Donated Leave Accounting
                           (Report Number FT-MA-13-012)

This report presents the results of our review of Donated Leave Accounting (Project
Number 13BD004FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Scott G. Davis
    Jean D. Parris
    Corporate Audit and Response Management
Donated Leave Accounting                                                                                           FT-MA-13-012




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Donated Leave Accounting ............................................................................................. 2

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 5

Appendix B: Other Impact ............................................................................................... 6
Donated Leave Accounting                                                                            FT-MA-13-012




Introduction

This report presents the results of our review of Donated Leave Accounting (Project
Number 13BD004FT000). The objective of the review was to determine whether the
U.S. Postal Service properly established a process to record and account for unused
donated leave in accordance with accounting standards.1 This self-initiated review
addresses financial risk. See Appendix A for additional information about this audit.

The Postal Service’s Annual Leave Sharing Program2 allows career and transitional
Postal Service employees3 to donate earned annual leave to eligible Postal Service
employees. After the leave is transferred to the requestor, the annual leave becomes
donated leave in the payroll system. Recipients receive and may use this donated leave
under certain conditions. Specifically, donated leave may be used only after earned
annual and sick leave are exhausted, during the leave recipient's eligibility period, and
when the recipient would be in a normal pay status except for the incapacitation due to
the qualifying health condition. Further, it may be used to retroactively replace the
40 hours without pay requirement to be eligible to receive donated leave. Upon
separation, the employees who requested the donated leave time receive payment for
any unused donated leave.

During our fiscal year (FY) 2012 financial statements audit work, we observed that the
unused donated leave value was not included in the recording of the accumulated leave
value. To determine the financial impact, we reviewed the accounting process used for
donated leave. The accounting standards require future compensated absences be
recorded in the financial statements.

As of September 30, 2012, active Postal Service employees used about 1.4 million
donated leave hours for an estimated value of $37.8 million. The value of unused
donated leave is about $5.6 million.

Conclusion

The Postal Service did not properly account for the value of unused donated leave in its
financial records. This occurred because its procedures did not address donated leave.
As a result, as of September 30, 2012, the Postal Service understated its responsibility
for the value of future absences in its financial records by about $5.6 million. Although
this amount is not material to the financial statements, accounting standards require the
Postal Service to establish accountability for employees' compensation of future


1
  Financial Accounting Standards Board Codification 710-10-25-1, Compensated Absences, dated September 15,
2009.
2
  Management Instruction EL-510-2003-2, dated October 30, 2003.
3
  Career employees are employees who are part of the regular work force. Transitional employees are hired for a
term not to exceed 360 calendar days for each appointment.
                                                        1
Donated Leave Accounting                                                        FT-MA-13-012



absences. Management implemented a software change request4 to update the
Accrued Leave Liabilities report on March 22, 2013. In addition, management plans to
update Postal Service policies and procedures by April 30, 2013; therefore, we are not
making any recommendations in this report.

Donated Leave Accounting

The Postal Service did not record the future cost of unused donated leave in its financial
records. This occurred because Postal Service procedures to establish a monthly
liability for future compensated absences omitted unused donated leave. The current
process to record the value of the estimated leave liability uses the Accrued Leave
Liabilities report. Due to insufficient oversight, the Postal Service did not include unused
donated leave hours and the associated compensation amount in the report since
initiation of the Annual Leave Sharing Program. As a result, employees' accumulated
leave liabilities were understated in the financial statements for the value of unused
donated leave.

Accounting standards require the Postal Service to establish a liability for employees'
compensation for future absences if:

     The employer's obligation relating to an employee's right to receive compensation
      for future absences is attributable to the employee's services already rendered.

     The obligation relates to rights that vest or accumulate.

     Payment of the compensation is probable.

     The amount can be reasonably estimated.

As required by these standards, the Postal Service establishes a monthly liability for
annual and holiday leave it expects to pay. The amount of this leave liability is adjusted
monthly, based on information in the Accrued Leave Liabilities report. However,
because this report did not include the unused donated leave data, the liability was
not adjusted for unused donated leave. Therefore, the employees' accumulated
leave liability was understated by about $5.6 million as of September 30, 2012. See
Appendix B for other impact.

We discussed this matter with management and confirmed that the unused donated
leave was not included in the process to establish employees' accumulated leave
liability since the Annual Leave Sharing Program started. As a result of our audit,
management implemented a software change request to update the Accrued Leave
Liabilities report on March 22, 2013. In addition, management anticipate they will update




4
    Software change request EA2372-2, dated January 7, 2013.

                                                        2
Donated Leave Accounting                                                      FT-MA-13-012



Postal Service policies and procedures to include unused donated leave by
April 30, 2013. Therefore, we are not making any recommendations. We will continue to
monitor the leave accountability process as part of our ongoing financial statement audit
work.




                                            3
Donated Leave Accounting                                                                      FT-MA-13-012



                              Appendix A: Additional Information

Background

The Postal Service Annual Leave Sharing Program allows career and transitional Postal
Service employees to receive and use donated annual leave. Employees who are
incapacitated due to serious health conditions may request and receive donated annual
leave. Annual leave becomes donated leave when transferred to the requestor with
approved documentation. The donated leave balance appears as a separate category
on the receiving employees' payroll records. The period for which an employee uses
donated leave is considered to be a paid leave status, except employees do not earn
sick leave or annual leave on the donated leave hours used.

Donated leave may be used:

   During the recipient's leave eligibility period as long as there is a balance of donated
    leave available.

   When the recipient would be in a normal pay status except for the incapacitation due
    to the qualifying health condition.

   To retroactively replace the requirement to expend 40 hours without pay to become
    eligible to receive donated leave.

   Only after earned annual and sick leave is exhausted. If use of donated leave is
    requested when the recipient has an earned annual or sick leave balance, leave is
    charged in the following order: earned sick leave, earned annual leave, donated
    leave.

The value of any unused donated leave is included in the employee's final payment
upon separation. However, if an employee has a negative leave balance, the unused
donated leave balance is first applied to negative sick leave balances and then to
negative annual leave balances, except for separation by death or disability. Accounting
standards require establishment of a liability for unused donated leave when it will be
used as compensation for future absences, the payment is considered probable, and
the amount can be reasonably estimated.5

Objective, Scope, and Methodology

The objective of the review was to determine whether the Postal Service properly
established a process to record and account for the value of unused donated leave in
accordance with accounting standards.



5
 Financial Accounting Standards Board Codification 710-10-25-1, Compensated Absences, dated September 15,
2009.

                                                     4
Donated Leave Accounting                                                       FT-MA-13-012



To accomplish our objective, we:

   Judgmentally selected a pay period that ended in September 2012 to include activity
    through FY 2012.

   Extracted accumulated donated leave data from the Postal Service mainframe.

   Interviewed Postal Service personnel.

   Reviewed Postal Service policies, procedures, and regulations.

   Reviewed accounting standards.

   Reviewed and analyzed donated leave data using Audit Command Language and
    Excel.

We conducted this review from December 2012 through April 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We provided a preliminary draft copy of this report to
management on March 15, 2013, and, because we did not make any recommendations,
management chose not to respond formally to this report.

We assessed the reliability of computer-generated data from the payroll system by
tracing to the source documents and determined that the data were sufficiently reliable
for the purposes of this report.

Prior Audit Coverage

The U.S. Postal Service Office of Inspector General did not identify any prior audits or
reviews related to the objective of this audit.




                                            5
Donated Leave Accounting                                                                            FT-MA-13-012




                                       Appendix B: Other Impact

           Recommendation                       Impact Category                          Amount
           None                         Data Integrity6                                 $5,606,595

We identified 12,136 active employees with 210,938 hours of unused donated leave as
of September 30, 2012. The value of the unused donated leave was $5,606,595 based
on employees' salary rates.




6
 Validation of the consistency, accuracy, and completeness of data used by the Postal Service. Data used to support
management decisions that is not fully supported or completely accurate. This can be the result of a flawed
methodology; procedural errors; or missing or unsupported facts, assumptions, or conclusions.

                                                         6
